2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

@OCKLE

TN

E-Mail Address:

contact@cocklelegalbriefs.com

Legal Briefs

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-518

Colorado Department of State, Petitioner

Vv.
Micheal Baca et al., Respondents

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the Brief of Amicus Curiae National Conference of Commissioners
on Uniform State Laws Supporting Petitioner in the above entitled case. All parties required to be served have been served
by Priority Mail. Packages were plainly addressed to the following:

To be filed for:
Peter F. Langrock
111 South Pleasant Street
P.O. Drawer 351
Middlebury, VT 05753-0351

Carl H. Lisman
NCCUSL President
84 Pine St.
Burlington, VT 05401

Daniel Robbins

Chair, NCCUSL Exec. Comm.
15301 Ventura Blvd., Bldg E
Sherman Oaks, CA 91403

Susan Kelly Nichols

Chair, UFPEA Drafting Comm.

3217 Northampton St.
Raleigh, NC 27609

Of Counsel for Amicus Curiae

SEE ATTACHED

James Bopp, Jr.

Counsel of Record
Richard E. Coleson
Melena S. Siebert

THE BOPP LAW FIRM, PC

The National Building

1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 telephone
812/235-3685 facsimile
jboppjr@aol.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 20th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public Affiant

 

38905
SERVICE LIST

Mr. Eric Reuel Olson

Counsel of Record
Colorado Department of Law,
Office of the Attorney General
1300 Broadway, 10th Floor
Denver, CO 80203
eric.olson@coag.gov
Phone: 720-508-6548
Counsel for Petitioner

Mr. Lawrence Lessig
Counsel of Record
Harvard Law School
1563 Massachusetts Ave.
Cambridge, MA 02138
lessig@law.harvard.edu
Phone: 617-496-8853
Counsel for Respondents
